         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's Energy
Efficiency and Conservation Block
Grant Program Funded under the
American Recovery and
Reinvestment Act for the State of
Pennsylvania




OAS-RA-L-11-11                    September 2011
                                 Department of Energy
                                   Washington, DC 20585
                                      September 23, 2011


MEMORANDUM FOR PROGRAM MANAGER, OFFICE OF WEATHERIZATION AND
                  INTERGOVERNMENTAL PROGRAM
               MANAGER, GOLDEN FIELD OFFICE

FROM:                   Joanne Hill, Director
                        Energy Audits Division
                        Office of Inspector General
SUBJECT:                INFORMATION: Audit Report on "The Department of Energy's
                        Energy Efficiency and Conservation Block Grant Program Funded
                        under the American Recovery and Reinvestment Act for the State of
                        Pennsylvania"
                        Audit Report Number: OAS-RA-L-11-11

BACKGROUND

The Department of Energy's (Department) Energy Efficiency and Conservation Block Grant
Program (Program), funded for the first time by the American Recovery and Reinvestment Act
of 2009 (Recovery Act), was intended to help U.S. cities, counties and states develop, promote,
implement and manage energy efficiency and conservation projects. The Program received
$3.2 billion in funding under the Recovery Act for competitive and formula grants.
Subsequently, the Department awarded a $23.6 million formula grant to the State of
Pennsylvania's (State) Department of Environmental Protection (DEP). Of the $23.6 million
awarded, the State retained about $1.2 million in funding for administrative costs and awarded
$22.4 million to 69 local governments and 33 non-profit entities selected through a merit review
process. In total, Pennsylvania plans to complete 102 energy conservation projects.

The Office of Energy and Technology Deployment (OETD), a division of the State's DEP,
administers the grant through its Central Office and provides Program oversight to six Regional
Offices around the State. A supervisor in each Regional Office oversees multiple project
advisors – individuals assigned to provide day-to-day management of local projects. As of
July 2011, OETD officials reported that 85 projects had been completed.

Because of the risks inherent in establishing a large new program of national significance, we
initiated this audit to determine whether OETD had managed its Block Grant award efficiently
and effectively, and the goals of the Recovery Act will be achieved.

CONCLUSIONS AND OBSERVATIONS

Pennsylvania had developed and implemented a monitoring system designed to provide reasonable
assurance that Block Grant projects would improve energy efficiency and be completed timely,
and funding would be accounted for and spent properly. For the specific projects we tested, the
controls appeared to be generally effective. We did not identify any material issues with project
monitoring and execution.

Specifically, the State had required its sub-recipients to complete projects within 18 months,
allowing time for reallocation and project revision, if appropriate; developed a management
strategy that included use of a specialized project tracking database, weekly status meetings and
periodic project inspections; and, implemented a staged disbursements system to facilitate
project progress and ensure Recovery Act funds were used only for approved expenditures.

In addition, we found the State had awarded grants for projects consistent with Program
objectives in improving energy efficiency and reducing energy use. For the 26 projects we
reviewed, many sub-recipient projects included window replacement, insulation installation,
heating system improvements and/or lighting upgrades – all activities known to improve energy
efficiency. Further, our review showed that projects periodically reported energy consumption
data, as required, which was reviewed by OETD management.

                                       Project Completion

As required by grant agreements issued by the State, we found that sub-recipients had either
completed projects or were on track to complete projects within 18 months of the award. As of
July 2011, OETD reported that 85 of its 102 projects had been completed within the 18-month
period and about $18.5 million (or nearly 80 percent) of the $23.6 million State grant had been
expended. According to OETD management, and consistent with the results of our project
reviews, most projects were performed and completed during the period from late November
2009 through May 2011. The remaining 17 projects are on track to be completed prior to
September 2012, the end date of the OETD grant period.

We also found that sub-recipients reported project energy consumption to ENERGY STAR's
Portfolio Manager Program, an interactive energy management tool, as required. This
interactive energy management tool allows users to benchmark facilities relative to their past
performance, monitor energy costs and identify opportunities for savings. Sub-recipients were
encouraged to update their project data regularly. During our audit, we found evidence in project
inspection reports that State officials periodically checked the system to ensure submissions were
up-to-date. Further, sub-recipients were required to submit a follow-up report within 13 months
of project completion describing the project's energy conserved in comparison to a 1-year
baseline of energy consumed prior to the installation of Recovery Act funded energy
conservation measures.

                                       Grant Management

OETD employed several generally effective methods to manage Program grants, including
implementing a project tracking database, performing on-site inspections and conducting weekly
meetings with regional staff. The database, DEP ARRA Reporting and Tracking System
(DARTS), was specifically developed by DEP to track Recovery Act funded programs in the
State and serve as a central repository for key project documents. During our review, we verified
that controls were in place to ensure documentation was retained in the database as required.

                                                2
Specifically, we examined documentation such as statements of expenditures and affidavits
maintained in project files at the Regional Office and sub-recipient levels and compared them to
information contained in DARTS.

Our review of selected projects showed that OETD was monitoring projects as planned. As part
of their monitoring activities, OETD project advisors were required to perform on-site
inspections for each assigned project and prepare a written report documenting the results of the
review. We reviewed inspection reports completed for 26 projects in our sample and noted that
the reports included a summary of major project milestones such as project design, subcontractor
award, equipment acquisition and commissioning. In addition, project advisors frequently added
an estimate of percentage of project completion, provided comments on project status and
proposed adjustments based on observations made during the site visit. We examined
subsequent reports and found that resolutions of proposed adjustments were documented.
Further, although the frequency of inspections was left to the discretion of project advisors,
Central Office personnel reported that they encouraged a minimum of three on-site inspections:
prior to the start of the project; during work; and, following project completion.

In addition to direct monitoring, we noted that early in the Program OETD management took
additional action to increase the likelihood of project success. Specifically, OETD held weekly
meetings with Central Office and Regional Office supervisors and project advisors to discuss the
status of each project. According to State officials, the project status identified in DARTS and
information obtained during inspections served as the basis for discussion. To mitigate the
impact of any reported project delays, local officials told us senior management officials had
provided added assistance.

                                          Disbursements

Our review showed that OETD stage-gate disbursement and expenditure documentation controls
were generally effective in ensuring projects proceeded as planned and reimbursements were
made for actual incurred costs. OETD implemented a staged disbursement process that required
sub-recipients to meet specific requirements prior to distributing Program funds. We found sub-
recipients were advanced 50 percent of their total award upon execution of the grant agreement
and submission of any approved building permits, and they received subsequent disbursements
only upon OETD receipt of expenditure reports identifying costs incurred.

During our review, we examined documentation related to disbursements for two terminated
projects and 26 on-going projects. For the two terminated projects, we found that both sub-
recipients had returned the initial disbursements plus interest earned on the funds, as required.
For the 26 on-going projects, we did not identify questionable costs during our examination of
the statements of expenditures and related receipts. However, our review of select payroll
records revealed that in two instances, contractors had paid less than the wage required by the
Department of Labor for Recovery Act funded projects. State officials told us that with the
State's guidance, contractors will issue corrected payroll records to ensure workers have been
paid the required minimum wage and fringe benefits.




                                                 3
Path Forward

Given the importance of the Recovery Act, we suggest that the State continue to closely monitor
project performance and funds expended in order to meet Program goals and Recovery Act
requirements. In addition, we suggest that Pennsylvania ensure contract workers are paid no less
than minimum wage rates required.

No formal recommendations are being made in this report and a response is not required. We
appreciate the cooperation of your staff during the conduct of our audit.

Attachment

cc: Acting Assistant Secretary, Office of Energy Efficiency and Renewable Energy, EE-1




                                               4
                                                                                        Attachment


                        OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Office of Energy and Technology
Deployment (OETD) had managed its Energy Efficiency and Conservation Block Grant Program
(Program) award efficiently and effectively, and the goals of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) will be achieved.

SCOPE

The audit was performed from February 2011 to August 2011. The scope of the audit was
limited to the State of Pennsylvania's (State) implementation of its Program. We conducted
work at the OETD's Central Office in Harrisburg, Pennsylvania, and at their Regional Offices in
Norristown, Meadville, Pittsburgh, Harrisburg, and Wilkes-Barre, Pennsylvania. In addition, we
obtained Program information from the Department of Energy's (Department) Headquarters and
Golden Field Office.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed Federal and Departmental regulations applicable to the Program;

       Reviewed State policies and procedures for project and Recovery Act fund management;

       Examined the State's Department of Environmental Protection ARRA Reporting and
       Tracking System for each project in our sample;

       Interviewed Central Office and Regional Office personnel;

       Reviewed grant records and physically visited 26 projects; and,

       Conducted desk reviews of two terminated projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer processed data to accomplish our audit objective.

The Department's Office of Energy Efficiency and Renewable Energy waived an exit conference.
An exit briefing was held with State officials on September 15, 2011.



                                                 5
                                                               IG Report No. OAS-RA-L-11-11

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form.
